                           Office of the Inspector General
                  Corporation for National and Community Service




                          Pre-Audit Survey Report of the
                     Delaware Community Service Commission


                          OIG Audit Report Number 00-06
                                 October 8,1999




                                        Prepared by:
                                  Urbach Kahn & Werlin, PC
                                  1030 Fifteenth Street, N.W.
                                   Washington, D.C. 20005

                              Under CNS OIG MOU # 98-046-5003
                                 With the Department of Labor
                                    Contract # 5-9-G-8-0024
                                    Task Order B9G9X102



This report was issued to Corporation management on May 18, 2000. Under the laws
and regulations governing audit follow up, the Corporation must make final
management decisions on the report's findings and recommendations no later than
November 14,2000, and complete its corrective actions by May 18,2001. Consequently,
the reported findings do not necessarily represent the final resolution of the issues
presented.
                                 Office of Inspector General                              CORPORATION
                       Corporation for National and Community Service                     FOR NATIONAL

                                   Pre-Audit Survey of the
                           Delaware Community Service Commission
                               OIG Audit Report Number 00-06


Introduction

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, awards grants and cooperative agreements to state commissions, nonprofit
entities, tribes and territories to assist in the creation of full and part time national and community
service programs. Currently, in accordance with the requirements of the Act, the Corporation awards
approximately two-thirds of its AmeriCorps Staternational funds to state commissions. The state
commissions in turn fund, and are responsible for the oversight of, subgrantees who execute the
programs. Through these subgrantees, AmeriCorps Members perform service to meet educational,
human, environmental, and public safety needs throughout the nation.

Thus, state commissions play an important role in the oversight of AmeriCorps programs and
expenditures. The Corporation has indicated that it intends to give them greater responsibility.
However, the Corporation lacks a management information system that maintains comprehensive
information on its grants including those to state commissions and subgrantees. Moreover, although
the Corporation began state commission administrative reviews in 1999, the Corporation,
historically, has not carried out a comprehensive, risk-based program for grantee financial and
programmatic oversight and monitoring. It is also unlikely that AmeriCorps programs are subject
to compliance testing as part of state-wide audits under the Single Audit Act due to their size relative
to other state programs.

Therefore, CNS OIG has initiated a series ofpre-audit surveys intended to provide basic information
on the state commissions' operations and funding. The surveys are designed to provide a
preliminary assessment of the commissions' pre-award and grant selection procedures, fiscal
administration, monitoring of subgrantees (including AmeriCorps Member activities and service
hour reporting), and the use of training and technical assistance funds. For each survey, we will
issue a report to the state commission and to the Corporation communicating the results and making
recommendations for improvement, as appropriate.

We engaged UrbachKahn & WerlinPCtoperform thepre-audit survey of the Delaware Community
Service Commission. As a result of the survey procedures performed, UKW reports that while the
Commission appears to have adequate controls related to training and technical assistance, itsfiscal
administrative controls and subgrantee monitoringprocedures are inadequate. Because of a lack
ofsupporting documentation, UKWwas unable to determine whether the Delaware Commission has
an open and competitive process to select national service subgrantees. The report includes
numerous recommendations for improvements in the Commission's subgrantee selection, grants
administration and monitoringprocesses. The report also includes recommendationsfor follow-up

                                                                                     inspector General
                                                                                     1201 New York Avenue, N W
                                                                                     Washington, DC 20.52.5
on corrective actions by the Corporation for National Service and revision of the Corporation 's
guidance on subgrantee monitoring to speczfi minimum procedures to be performed and minimum
documentation requirements. Finally the report recommends afull scopeJinancia1 audit of thefunds
awarded to the Commissionfor 1995 through the current program year.

We have reviewed the report and work papers supporting its conclusions, and we agree with the
findings and recommendations presented. In its response (Appendix A), the Delaware
Commission's response disagreed with many of the report's findings and conclusions.
                                     Office of the Inspector General
                             Corporation for National and Community Service

                                        Pre-Audit Survey Report of the
                                   Delaware Community Service Commission



                                                        Table of Contents


Pre-Audit Survey Report

  Results in Brief ...........................................................................................................................        1

  Background ........................................,........................................................................................ 2

  Overview of the Delaware Commission ....................................................................................                           3

  Objectives, Scope and Methodology ......................................................................................... 4

  Findings and Recommendations ................................................................................................                       5


Appendices

  Appendix A - Delaware Commission Funding - 1995 through 1999 ..................................... 13

  Appendix B - Detailed Engagement Objectives and Methodology ........................................18

  Appendix C - Delaware Commission Response ................................................... .............                                    ... 2 1

  Appendix D - Corporation Response .......................................................................................37
UJS Urbach Kahn & Werlin PC
    CERTIFIED PUBLIC ACCOUNTANTS




    Inspector General
    Corporation for National and Community Service

    At your request, Urbach Kahn and Werlin PC performed a pre-audit survey of the Delaware
    Community Service Commission. The primary purpose of this survey was to provide a
    preliminary assessment of:

           the adequacy of the pre-award selection process;

           the fiscal procedures at the Commission;

           the effectiveness of monitoring Delaware State Commission subgrantees, including
           ArneriCorps Member activities and service hours; and

           the controls over the provision of technical assistance.

    We were also asked to report on the recommended scope of additional audit procedures to be
    performed at the Delaware Commission.

    RES UL TS IN BRIEF

    Based on the results of the limited procedures performed, we have made the following
    preliminary assessments regarding the Commission's systems for administering grants received
    from the Corporation.

       We were unable to determine if the Commission has an open and competitive process to
       select national service subgrantees and whether the related systems and controls are
       functioning as designed, due to the lack of supporting documentation.

       The Commission does not have an adequate process in place for the fiscal administration of
       grants.

       The Commission does not have adequate controls in place to evaluate and monitor
       subgrantees.

       The Commission appears to have adequate controls in place to ensure that training and
       technical assistance are made available and provided to subgrantees.




                      1030 Fifteenth Street NW, Washington, DC 20005 (202) 296-2020 FAX (202) 223-8488
                                    An Independent Member of Urbach Hacker Young International
Based on our preliminary assessments, we recommend that the OIG perform a full-scope
financial audit of the funds awarded to the Delaware Commission for 1995 through the current
program year. Procedures should also include verification of reported Member service hours and
matching amounts by subgrantees. In addition, we recommend that the Corporation follow up
with the Commission to determine that appropriate corrective actions are put in place to address
the conditions reported herein and that the Corporation consider these conditions in its oversight
and monitoring of the Delaware Commission.

BACKGROUND

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended the
National and Community Service Act of 1990, established the Corporation for National and
Community Service.

The Corporation, pursuant to the authority of the Act, awards grants and cooperative agreements
to State Commissions, nonprofit entities, and tribes and territories to assist in the creation of full
and part time national and community service programs. Through these grantees, ArneriCorps
Members perform service to meet the educational, human, environmental, and public safety
needs throughout the nation, especially addressing those needs related to poverty. In return for
this service, eligible Members may receive a living allowance and post-service educational
benefits.

Currently, the Corporation awards approximately two-thirds of its AmeriCorps State/National
funds to State Commissions. State Commissions are required to include between 15 and 25
voting members. Each Commission has a responsibility to develop and communicate a vision
and ethic of service throughout the State.

The State Commissions provide AmeriCorps funding to approved subgrantees for service
programs within their states and are responsible for monitoring these subgrantees' compliance
with grant requirements. The State Commissions are also responsible for providing training and
technical assistance to AmeriCorps State and National Direct programs and to the broader
network of service programs throughout the state. The Commissions are prohibited from directly
operating national service programs.

The Corporation's regulations describe standards for financial management systems that must be
maintained by State Commissions. The standards require, in part, that the State Commissions
maintain internal controls that provide for accurate, current, and complete disclosure of the
financial and programmatic results of financially assisted activities, as well as effective control
and accountability for all grant and subgrant cash, real and personal property, and other assets.
OVER VIEW OF THE DELA WARE COMMISSION

The Delaware Community Service Commission is headquartered in New Castle, Delaware. The
Commission has been providing national and community service programs in its current form
since 1995. The Commission reported that it received funding from the Corporation totaling
$729,302 in 1995; $986,426 in 1996; $920,941 in 1997; $889,751 in 1998, and $964,704 in
1999. Additional information on the Commission's funding is presented in Appendix A.

The Commission currently has three full-time staff consisting of an Executive Director, a
Program Officer, and an Administrative Assistant. In addition, the Commission has a part time
Fiscal Officer and a Youth Advisor. The Commission's ArneriCorps and Learn and Serve
Program Officers monitor subgrantee program and fiscal activities.

As part of the State of Delaware, the Commission is included in the state's annual OMB Circular
A-133 audit. There have been no questioned costs or findings identified at the Commission to
date. However, it was not considered or tested as a major program.

The majority of the Commission's subgrantees are state agencies, which fall under the state A-
133 audit; however, even at the agency level, the Corporation-funded programs have not been
identified as major programs. The Commission provided the following information regarding
subgrantee A- 133 audits:

                                                                      Number of
                        Total Amount of                              Subgrantees
                          Corporation                                  Subject
          Program            Funds               Number of          To A-133 Audit
            Year          Sub~ranted            Subgrantees         Requirements




Determination of the number of subgrantees subject to OMB Circular A-133 audit requirements
is based on information received from the Commission and the dollar value of federal awards
passed through the Commission during the program year. Other subgrantees could be subject to
an OMB Circular A-133 audit if additional federal funds were received from other sources
during the program year.

During March 1999, the Delaware Community Service Commission engaged Walker &
Company, LLP to provide financial management consulting services and address specific fiscal
issues such as the Corporation's reporting process. Their review included: procedures for
invoicing the "Learn & Serve" programs; administrative and PDAT Funds; federal and state
regulations; budget preparation; reimbursement requests; and the grant process. This review
resulted in several recommendations that have been implemented by the Delaware Commission
during the 2000 program year.

OBJECTIVES, SCOPE AND METHODOLOGY

We were engaged by the Office of the Inspector General for the Corporation for National and
Community Service, to provide a preliminary assessment of the systems and procedures in place
at the Commission for administering grants and for monitoring the fiscal activity of subgrantees.

The primary purpose of this survey was to provide a preliminary assessment of:

       the adequacy of the pre-award selection process;

       the fiscal procedures at the Commission;

       the effectiveness of monitoring of Delaware State subgrantees, including AmeriCorps
       Member activities and service hours; and

       the controls over the provision of technical assistance.

We were also asked to report on the recommended scope of additional audit procedures to be
performed at the Commission.

Our survey included the following procedures:

       reviewing Corporation laws, regulations, grant provisions, the Reference Manual for
       Commission Executive Directors and Members, and other information to gain an
       understanding of legal, statutory and programmatic requirements;

       reviewing OMB Circular A-133 audit reports and current program year grant agreements
       for the Commission;

       obtaining information from Commission management to complete flowcharts
       documenting the hierarchy of Corporation grant hnding for program years 1995 through
       1999; and

       performing the procedures detailed in Appendix Byin connection with the Commission's
       internal controls, selection of subgrantees, administration of grant funds, evaluation and
       monitoring of grants, and technical assistance process.

As part of the procedures performed, we documented and tested certain internal controls in place
at the Commission using inquiry, observation, and examination of a sample of source documents.
Finally, we summarized our observations and developed the findings and recommendations
presented in this report. We discussed all findings with Commission management during an exit
conference on October 8, 1999. We also provided Commission personnel with documentation to
support these findings and allowed them additional time to provide us with supporting
documentation to resolve certain findings.

Our procedures were performed in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. We were not engaged to, and did not perform an
audit of any financial statements, and the procedures described above were not sufficient to
express an opinion on the controls at the Commission or its compliance with applicable laws,
regulations, contracts, and grants. Accordingly, we do not express an opinion on any such
financial statements or on the Commission's controls and compliance. Had we performed
additional procedures, other matters might have come to our attention that would have been
reported to you.

We provided a draft of this report to the Delaware Commission and the Corporation for National
and Community Service. The Commission's responses to our findings and recommendations are
included as Appendix C. In order to address certain concerns raised by the Commission in its
response, we have clarified certain findings and recommendations. The Corporation did not
respond within the thirty-day comment period.

FINDINGS AND RECOMMENDATIONS

Selection of Subgrantees

According to A Reference Manual for Commission Executive Directors and Members, Section
3.2, "Commissions are expected to develop a fair and impartial process for reviewing and
selecting applicants for potential funding." The Delaware Commission has developed various
procedures to meet this responsibility. The Delaware Commission announces the availability of
funds through direct mailings and newspaper advertisements. Potential subgrantees attend a pre-
bid meeting to gain an understanding of the available funds, as well as to receive an application.

A Program Oversight Committee then evaluates each application on the following: objectives
and goals of the program; ways the program will strengthen the community, develop its
members, and monitor and evaluate its continuing improvement; programs' organizational
capacities; and cost-effectiveness and sustainability. The Committee also personally interviews
all applicants. Once the interview process is completed, the Oversight Committee ranks each
applicant and makes recommendations to the Commission Board.

However, based on the results of our testing, we do not believe the documentation maintained by
the Commission to support the selection process is adequate. We have identified the following
areas for improvement.
              The Commission did not maintain signed conflict of interest forms
                                      as required.

Section 3.6 of the Reference Manual for Commission Executive Directors and Members states
"Commissions should strive to achieve the greatest objectivity and impartiality possible in the
review and selection of grantees in the state." The section continues to state "As defined by the
Act, a Commission member or review panel member is considered to have a conflict of interest if
the member is currently, or was within one year of the submission of a grant application to the
Commission: an officer, a director, a trustee, a full-time volunteer or an employee of an
organization submitting a grant application to the State Commission."

Page 3-30 of Section 3.6 states "If a Commission member has a conflict of interest, the member
must recuse himselfherself from the Commission's administration of the grant program,
including such activities as any discussions or decisions by the Commission regarding the
provision of funds or education awards to any program or entity funded under the same funding
category."

The Commission was unable to provide signed conflict of interest statements for the 1995
through 1998 program years during our fieldwork. Subsequent to the completion of our
fieldwork, Commission personnel located some signed conflict of interest statements. However,
these statements did not include the dates of signature; therefore, we were unable to determine
the program year to which they relate.

Because the Commission could not provide all signed and dated conflict of interest statements,
we were unable to determine whether conflict of interest statements were properly completed by
all Commission and peer review panel members during the grantee selection process and whether
or not the individual reviewer maintained a conflict of interest.

We recommend that the Commission actively check for conflicts of interest and ensure that
signed and dated conflict of interest forms are maintained for each grant applicant on file in
accordance with the Corporation requirements.

                Some documentation was unavailable to support grant-making
                                       decisions.

The Commission was also unable to provide us with requested documentation related to
application rejections and award prior to the 1998 selection process. Therefore, we were unable
to determine whether the Commission followed Corporation guidelines regarding the selection of
subgrantees.

We recommend that the Commission enforce current policies and procedures requiring the
retention of documentation supporting the award or rejection of subgrantee applicants.
               Lack of assessment of subgrantee applicants' Financial Systems
                                during the selection process

According to A Reference Manual for Commission Executive Directors and Members, Section
4.2, Commissions are responsible for maintaining "appropriate financial management systems to
disburse funds and track Commission and program expenditures according to legal and grant
requirements." In order to comply with this requirement, the Commission must be able to ensure
that subgrantees have systems in place to accurately track expenditures, as this information forms
the basis of a majority of the Commission's expenditure reporting.

However, based on our testing, we found that selection officials do not consider the adequacy of
the applicants' financial systems during the Commission's subgrantee selection process. The
grant application form provided by the Corporation does not specifically address the applicant's
financial systems. In addition, Commission selection procedures do not require Commission
personnel to request information from the applicants related to their financial systems or to
otherwise assess an applicant's financial system. As a result, grant funds may be provided to an
organization that does not have financial systems in place to properly account for the Corporation
funds received or to ensure compliance with related requirements.

We recommend the Commission evaluate and document the adequacy of the applicants' financial
systems during the selection process to ensure that applicants have systems in place to properly
account for grant funds and comply with related grant requirements.

     The Commission did not advertise the availability of funds for the 1998program year.

A Reference Manual for Commission Executive Directors and Members, page 3-9, states "Just as
the process for developing the Unified State Plan must be open and accessible to all interested
parties, so too must the process by which the Commission solicits funding applications. The
Commission is expected to widely publicize the availability of funds, distribute a clear and easily
understood application packet, and offer technical assistance to potential applicants. The
application instructions should reflect the themes and priorities of the state and those established
by the Corporation."

The Director of Social Service Centers stated that the Commission did not believe the full
competitive process was required if the state had eligible renewal subgrantee candidates. While
an open and competitive process is required under Corporation guidance, the Corporation allows
the State Commissions to award funds to subgrantees without announcing the availability of
funds if they have limited resources and eligible renewal candidates. However, the Commission
did not document their reasons for failing to announce the availability of fimds during the
selection process.

We recommend that the Commission revise procedures to document the reasoning for not
announcing the availability of funds, during the selection of subgrantees.
Administering Grant Funds

As part of the grant administration process, "Commissions must evaluate whether subgrantees
comply with legal, reporting, financial management and grant requirements and ensure follow
through on issues of non-compliance" ( A Reference Manualfor Commission Executive Directors
and Members, Section 4.3). Based on the results of our testing, we identified the following areas
for improvement related to the evaluation of subgrantee compliance with reporting and grant
requirements.

                 Lack of evidence of Financial Status Report review, including
                                    matching recalculation

Commission procedures indicate that subgrantees Financial Status Reports are reviewed, and
matching requirements are recalculated. However, no supporting documentation exists that this
review was performed. In addition, Commission personnel do not compare the FSRs to the
subgrantees' accounting systems or other supporting documentation during site visits.

Because of these conditions, errors on the FSRs may occur and remain undetected. Although all
subgrantees are on a reimbursement only basis, if subgrantee FSRs are not agreed to the
subgrantees' accounting system, there is an increased risk that subgrantees are incorrectly
reporting amounts on their FSRs and the Commission lacks reasonable assurance that
subgrantees are correctly reporting amounts on their FSR.

We recommend the Commission establish procedures that require subgrantees submit
reimbursement requests and FSRs at the same time, as recommended by Walker & Company,
during their March 1999 review. In addition we recommend the Commission develop standard
procedures to review subgrantee FSRs, recalculate matching requirements and to document the
results of this review. Also, the Commission should implement site visit monitoring procedures
that require the reconciliation of the subgrantees' FSRs to the subgrantees' accounting systems
along with other supporting documentation (e.g. invoices).

                      Inability to determine timeliness of receipt of FSRs

The Commission does not routinely date-stamp FSR reports from subgrantees as they are
received. Thus, the Commission can not routinely verify whether these documents are submitted
timely in compliance with the grant agreement.

Our testing also identified the following deficiencies:

       Four instances where subgrantees did not submit FSRs timely to the Delaware
       Commission;

       Ten instances where FSRs were submitted more than ten days late to the Corporation;
       and
       Four instances where we were unable to determine whether the subgrantees' FSRs were
       submitted in a timely manner.

On October 1, 1999, the Commission began using the Web Based Reporting System which
electronically records the date subgrantees submit their FSRs to the Commission. As a result, no
recommendation is required at this time related to recording the date of the receipt of FSRs.

                     The Commission did not maintain all required FSRs.

ArneriCorps Provision #17 states "Commissions and Parent Organizations are required to submit
quarterly Financial Status Reports and three Progress Reports to the Corporation. Commissions
and Parent Organizations must submit these reports by the following dates and include three
copies along with the original." It continues to state "ArneriCorps State programs and most
ArneriCorps National sites that receive subgrants must submit at least four Financial Status
Reports to their respective Commission or Parent Organization. In general, if a site has a
Corporation-approved budget then the submission of an FSR for that sitelsub-Grantee is
required. Commissions/Parent Organizations are required to forward Financial Status Reports
from programs and budgeted sites to the Corporation's Grants Office 30 days after the close of
each calendar quarter. Annual Financial Reports shall be submitted within 90 days of completion
and will compare actual expenditures to budgeted amounts using the line item categories in the
grant budget form."

We identified several deficiencies during our testing of the Delaware Commission's
administration of grants. Specifically, in a sample of 15 subgrantees, we identified the following
deficiencies regarding Financial Status Reports submitted by subgrantees, as well as FSRs
submitted to the Corporation:

       We were unable to locate all FSRs for nine subgrantees because FSRs were not
       maintained in the Commission subgrantee file;

       Several instances where we could not determine the accuracy of the FSRs submitted to
       the Corporation because portions of the FSRs were missing for various program years;
       and

       One instance where FSRs were not prepared on a quarterly basis, as required.

The lack of documentation relates to grants awarded during the 1995, 1996 and 1997 grant years.
We received all supporting documentation for grants awarded during 1998.

In addition, we were unable to determine the accuracy of prior quarter amounts reported (or
amounts carried forward) on FSRs submitted to the Delaware Commission by subgrantees, as
well as the accuracy of FSRs submitted by the Commission to the Corporation, due to various
missing quarterly FSRs.
While the new Web-Based Reporting System should alleviate the documentation and accuracy
issues, we recommend that the Commission reemphasize the requirement that all FSRs submitted
by subgrantees, as well as FSRs submitted by the Commission to the Corporation, be maintained
and be available for review. In addition, the Commission should ensure that data collection is
accurate and timely.

                  Lack of budget controls over Administrative and Program
                             Development and Training Funds

During a March 1999 review of fiscal procedures by Walker & Company, it was noted that the
Commission does not track their Administrative and Program Development and Training funds
using budget line items and it was recommended that the Department of Health and Social
Services Financial Management System be modified to track the budget categories using the
Federal Aid Master Category worksheet. As of October 1999, the accounting system had not yet
been modified.

Evaluating and Monitoring Grants

As discussed above, the Commission is responsible for evaluating whether subgrantees comply
with legal, reporting, financial management and grant requirements and ensuring corrective
action when noncompliance is found. However, the Commission was unable to provide us with
requested information on the number of program operating sites for each year under review and
other financial information until after the issuance of our draft report.

We identified additional areas for improvement related to the evaluation and monitoring of
subgrantees as follows:

              The evaluating and monitoring system for subgrantees needs to be
                               improved at the Commission.

According to OMB Circular No. A-1 33, Audit of States, Local Governments, and Non-Profit
Organizations, as amended, Subpart D § 400 (d)(3) pass through entities are required to
"Monitor the activities of subrecipients as necessary to ensure that Federal awards are used for
authorized purposes in compliance with laws, regulations, and the provisions of contracts or
grant agreements and that performance goals are achieved." In addition, 5 400 (d)(4) requires that
pass through entities "ensure that subrecipients expending $300,000 or more in Federal awards
during the subrecipient's fiscal year have met the audit requirements of this part for that fiscal
year."

The monitoring tool, currently in place at the Delaware Commission was created under the
guidelines established by the Corporation, as well as guidelines and recommendations received
from a CNS contractor. However, during our review of monitoring folders for subgrantees, we
determined that certain information was excluded from the site visit documentation. Specifically,
the names of the Member files reviewed, and identification of Member files where exceptions
noted were not included. For example, one file contained the following statement "some
Member files contained social security cards and some did not". We also determined that
comments included on the program review instrument were general in nature. Therefore, we
were unable to reperform or otherwise review the monitoring procedures performed by Delaware
Commission personnel.

We recommend that the Commission revise written policies and procedures to require that
specific information be included in the documentation for site visits (for example, sample sizes,
exceptions, recommendations, follow up on recommendations, and number of program operating
sites). This will allow the Corporation to assess the Commission's oversight of subgrantees when
it performs its planned Commission administrative reviews.

In addition, we recommend that the Corporation for National and Community Service revise its
guidance on subgrantee monitoring to specify minimum procedures to be performed, as well as
minimum documentation requirements.

             Lack of documentation of review of OMB Circular A-133 reports or
                           other audit reports from subgrantees

As discussed in the previous finding, OMB Circular No. A-133, Audit of States, Local
Governments, and Non-Profit Organizations, as amended, Subpart D 5 400 (d)(3) requires that
pass through entities " Monitor the activities of subrecipients as necessary to ensure that Federal
awards are used for authorized purposes in compliance with laws, regulations, and the provisions
of contracts or grant agreements and that performance goals are achieved." In addition, 5 400
(d)(4) requires that pass through entities "ensure that subrecipients expending $300,000 or more
in Federal awards during the subrecipient's fiscal year have met the audit requirements of this
part for that fiscal year."

While Commission procedures indicate that the Commission obtains and reviews OMB A-133
audit reports from subgrantees annually, this review is not documented as part of the monitoring
process. Therefore, we were not able to determine if the Commission routinely reviews these
reports to determine if auditors have identified control weaknesses or instances of non-
compliance related to the ArneriCorps program. In addition, during a site visit on November 20,
1998, the Corporation staff also noted that subgrantee program audit reports were not being
reviewed. As a result of these findings, during the 1999 program year, the Commission
developed procedures to review subgrantee A-1 33 audit reports.

We recommend the Commission ensure the procedures established during 1999 are implemented
and followed by Commission personnel. We also recommend that the Corporation require that
the Commission maintain documentation supporting the review of OMB Circular A-133 and
other audit reports.
Providing Technical Assistance

Annually, the Commission receives grant funds to provide technical assistance to its subgrantees.
Procedures are in place at the Commission to (1) identify training needs of subgrantees through
periodic staff meetings with the program directors and a needs assessment survey; (2) notify
subgrantees of training programs; and (3) provide needed training to subgrantees. Except for
issues identified with the monitoring of training funds, we identified no significant areas for
improvement within this process.


This report is intended solely for the information and use of the Office of the Inspector General,
management of the Corporation for National and Community Service, the Delaware Commission
on National and Community Service, and the United States Congress and is not intended to be
and should not be used by anyone other than these specified parties.




Washington, DC
October 8, 1999
APPENDIX A




            AMERIC~RPS
          FORMULA FUNDS




   ArneriCorps




   "
              $234,000


                MATCH
                $73,128




                             40,000
                                      .  (




                                           .
                    - DELA WARE COMMISSION FUNDING




                                      AMERICORPS
                                        COMPETITIVE
                                           FUNDS
                                          $246,689

                                            MATCH
                                            $60,929
                                                   CORPORATION FOR NATIONAL SERVICE
                                               FUNDING TO THE DELAWARE STATE COMMISSION
                                                                  1995

                                                                        I


                                                                     FUNDS
                                                                     $63,000


                                                                     MATCH
                                                                     $15,789




                                             TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION




                                                AMERICORPS
                                                 FORMULA
                                                  $234,000

                                                   MATCH
                                                   $73,128

                                                 TOTAL # OF
                                                   SUBS




        Information not received from the Comrnlssion
       Disablllty funds lncluded In grant award
                                                      1
                                                        1

                                                 TOTAL # OF
                                                   SITES'
                                                               $729,302




                                                                        'I
                                                        FUNDS AWARDED TO SUBGRANTEES
                                                                  $480,689




   Total Carryovers for 1995 (Not lncluded In the current year fund~ngamounts above).
   Adm~n~stration- $         29,873
                                                                                        .
                                                                                           SUBS.
                                                                                             1
                                                                                                 1
                                                                                              PDAT
                                                                                             FUNDS
                                                                                             $47,500

                                                                                              NO
                                                                                            MATCH
                                                                                           REQUIRED




                                                                                                 'I




                                                                                        AMERICORPS
                                                                                        COMPETITIVE
                                                                                          $246,689

                                                                                          MATCH
                                                                                          $60,929

                                                                                         TOTAL # OF



                                                                                         TOTAL # OF
                                                                                           SITES
                                                                                              2
                                                                                                             1
                                                                                                       ADMINISTRATION
                                                                                                          FUNDS "
                                                                                                          $138,113


                                                                                                          MATCH
                                                                                                             $'
                                                                                                                        I
APPENDIX A - DELA WARE COMMISSION FUNDING




                                                           CORPORATiON FOR NATIONAL SERVICE
                                                       FUNDING TO THE DELAWARE STATE COMMISSION
                                                                          1996




             FORMULA
              FUNDS                        FUNDS                         $37,500              $60,235              $128,359
             $511,314                      $249,018

              MATCH                        MATCH:                        MATCH                MATCH                MATCH
                                           $79.315                       $3,940              REQUIRED




                \                                                                                 +
                                                       TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                                         $986.426                              I




                                       I                     FUNDS AWARDED TO SUBGRANTEES
                                                                        $797.832




                                                                         AMERICORPS
                                            FORMULA:                     COMPETITIVE
                                             $511,314                      $249,018

                                              MATCH                          MATCH                    MATCH
                                             $248,959                        $79,315                  $3,940

                                            TOTAL # OF
                                              SUBS.
                                                                          TOTAL # OF
                                                                            SUBS         1        TOTAL # OF
                                                                                                    SUBS-
                                                                                                      3

                                            TOTAL # OF                    TOTAL # OF              TOTAL # OF
                                              SITES                         SITES                   SITES
                                                                                                       3




   Total Carryovers for 1996 (Not included in the current ye.ar funding amounts above)

       PDAT           $      45,140
       ArnerlCorps             8,022


        Inforrnatlon not recewed from the Commlsslon
   "
       Dlsablllty funds Included In grant award
APPENDIX A




   --    -




          .
          I
              --




               FORMULA
                FUNDS,
                      I

              AMERICORPS


                $461,686

                   MATCH
                          - DELAWARE COMMISSION FUNDING




                   $342.631




                                    I
                                       1
                                       I
                                        I




                                        I1I
                                        I
                                              MATCH-
                                              $82.180
                                                     CORPORATION FOR NATIONAL SERVICE
                                                 FUNDING TO THE DELAWARE STATE COMMISSION




                                            AMERICORPS
                                            COMPETITIVE
                                              FUNDS
                                              $255,000




                                            AMERICORPS
                                             FORMULA
                                              $461,686

                                              MATCH:
                                              $342,631

                                             TOTAL # OF
                                               SUBS
                                                                    1997




                                                                       FUNDS
                                                                       $62,057


                                                                       MATCH
                                                                       $70,981




                                                                    COMPETITIVE
                                                                      $255,000

                                                                        MATCH:
                                                                        $82,180

                                                                      TOTAL # OF
                                                                        SUBS.
                                                                                               I


                                                                                           FUNDS
                                                                                             $0

                                                                                             NO
                                                                                           MATCH
                                                                                          REQUIRED




                                                TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                                  $920,941




                                                         FUNDS AWARDED TO SUBGRANTEES
                                                                   $746,686




                                                                    AMERICORPS                LBS




                                                                                             MATCH.
                                                                                             $38,376

                                                                                         TOTAL # OF SUBS
                                                                                                   3
                                                                                                            I
                                                                                                                1
                                                                                                                ADMINISTRATION

                                                                                                                   FUNDS "
                                                                                                                   $142,198


                                                                                                                   MATCH
                                                                                                                   $58,151




                                                 2                        1
                                                                                         TOTAL # OF SITES
                                             TOTAL # OF               TOTAL # OF                 4
                                               SITES                    SITES-
                                                  4                        2




    Total Carryovers for 1997 (Not ~ncludedIn the current year funding amounts above):

        AmeriCorps        $   32.262

    " Disability funds ~ncludedin grant award
APPENDIX A - DELA WARE COMMISSION FUNDING




                                         AMERICORFS
                                         COMPETITIVE
                                           FUNDS
                                           $203,000

                                             MATCH.
                                             $87,759




                                                 TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                                   $889,751




                                                        FUNDS AWARDED TO SUBGRANTEES




                                      ?   AMERICORFS
                                           FORMULA.
                                            $432,936

                                             MATCH.
                                             $330,651

                                           TOTAL # OF
                                             SUBS.
                                                                  COMPETITIVE
                                                                    $203,000

                                                                      MATCH.
                                                                      $87,759

                                                                TOTAL # OF SUBS
                                                                                                 $30,000


                                                                                                 MATCH.
                                                                                                 $32,605

                                                                                           TOTAL # OF SUBS

                                                  2
                                                                TOTAL # OF SITES           TOTAL # OF SITES-




   Total Carryovers for 1998 (Not ~ncludedIn the current year fundlng amounts above)




   "   D~sabilltyfunds included in grant award
   "'Learn & Serve amount represents funds from 1997.     A no cost extension was awarded for the 1998 program year and the
       funds were used to renew the subgrantee from the prior year
APPENDIX A - DELAWARE COMMISSION FUNDING




                                                        CORPORATION FOR NATIONAL SERVICE
                                                    FUNDING TO THE DELAWARE STATE COMMISSION
                                                                       1999
   I                                                              I


                1
          AMERICORPS
                                          1
                                  AMER~CORFS
                                                                                                           1
                                                                                                   ADMINISTRATION
                                                                                                                       1
                                                                                                                     PROMISE
           FORMUIA                COMPETITIVE                 FUNDS                   FUNDS           FUNDS '*      FELLOWSHIP
            FUNDS                   FUNDS                     $75,440                 $66,000         $134,671        FUNDS
            $398,586                $225,007                                                                          $65,000
                                                                                       NO
            MATCH                    MATCH                    MATCH                  MATCH             MATCH          MATCH
            $261.094                 $110.284                 $34,283               REQUIRED           $134,671         $0




                                          'I                                               +               y

                                                   TOTAL CNS FUNDS AVAILABLE TO THE COMMISSION
                                                                     $964,704




                                                            FUNDS AWARDED TO SUBGRANTEES
                                                                      $687,193




                                          1    AMERICORPS

                                               FORMULA                  COMPETITIVE
                                                $398,586                  $225,007

                                                MATCH                      MATCH                 MATCH:
                                                $261,094                   $110,284              $34,283

                                               TOTAL # OF                 TOTAL # OF            TOTAL # OF
                                                   SUBS                      SUBS                 SUBS.
                                                    2                          I


                                               TOTAL # OF
                                                 SITES.
                                                    5
                                                                          TOTAL # OF
                                                                            SITES:
                                                                               4
                                                                                                i
                                                                                                TOTAL # OF
                                                                                                  SITES.




       Total Carryovers for 1999 (Not tncluded in the current year fundmg amounts above)

       FQAT               $      20,000

       " Dlsabll~tyfunds tncluded In grant award
APPENDIX 5 - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY


Internal Controls

Our objective was to make a preliminary assessment of the adequacy of the Commission's
financial systems and documentation maintained by the Commission to provide reasonable
assurance that transactions are properly recorded and accounted for to: (1) permit the
preparation of reliable financial statements and Federal reports; (2) maintain accountability
over assets; and (3) demonstrate compliance with laws, regulations, and other compliance
requirements.

In order to achieve the above objectives, we interviewed key Commission personnel to assess
the Commission's internal controls surrounding the following to ensure compliance with Part
6 of A-133, Internal Control of the Compliance Supplement to OMB Circular A-133, Audits
of States, Local Governments, and Non-Profit Organizations: overall control environment;
activities allowed or unallowed and allowable costs; cash management; eligibility; equipment
and real property management; matching; period of availability of Corporation funds;
procurement and suspension, debarment; program income; and reporting by the Commission
to the Corporation.

Selection of Subgrantees

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission
       to select national service subgrantees to be included in any application to the
       Corporation;

       make a preliminary assessment as to whether the Commission evaluated the adequacy
       of potential subgrantee financial systems and controls in place to administer a Federal
       grant program prior to making the award to the subgrantees; and

       make a preliminary assessment as to whether the Commission's involvement in the
       application process involved any actual or apparent conflict of interest.

In order to achieve the above objectives, we interviewed key Commission management and
documented procedures performed by the Commission during the pre-award financial and
programmatic risk assessment of potential subgrantees. We also reviewed documentation to
ensure that conflict of interest forms for each subgrantee applicant tested were signed by all
peer review members annually and maintained by the Commission.
APPENDIX B     - DETAILED ENGAGEMENT           OBJECTIVES AND METHODOLOGY


Administering the Grant Funds

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission
       to oversee and monitor the performance and progress of funded subgrantees;

       make a preliminary assessment as to whether the Commission's organizational
       structure and staffing level and skill mix is conducive to effective grant
       administration and whether the commission has a properly constituted membership;

       make a preliminary assessment as to whether the Commission provided adequate
       guidance to subgrantees related to maintenance of financial systems, records,
       supporting documentation, and reporting of subgrantee activity;

       conduct a preliminary survey of financial systems and documentation maintained by
       the Commission to support oversight of subgrantees and required reporting to the
       Corporation (including Financial Status reports, enrollment and exit forms); and

       make a preliminary assessment as to what procedures the Commission has in place to
       verify the accuracy and timeliness of reports submitted by the subgrantees.

In order to achieve the above objectives, we reviewed Financial Status Reports submitted by
subgrantees, as well as Financial Status Reports submitted by the Commission to the
Corporation, to preliminarily assess the accuracy of submitted Financial Status Reports. We
also determined whether the Commission has implemented the Web Based Reporting
System.

Evaluating and Monitoring Grants

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commission,
       in conjunction with the Corporation, to implement a comprehensive, non-duplicative
       evaluation and monitoring process for their subgrantees;

       make a preliminary assessment as to whether the Commission has a subgrantee site
       visit program in place and assess the effectiveness of its design in achieving
       monitoring objectives;

       conduct a preliminary survey of the Commission's procedures used to assess
       subgrantee compliance with Corporation regulations (e.g., those governing eligibility
       of Members, service hour reporting, prohibited activities, payment of living
APPENDIX B - DETAILED ENGAGEMENT OBJECTIVES AND METHODOLOGY


       allowances to Members and allowability of costs incurred and claimed under the
       grants by subgrantees (including reported match));

       conduct a preliminary survey of the Commission's procedures for obtaining,
       reviewing and following up on findings included in the subgrantee single audit
       reports, where applicable;

       determine whether program goals are established and results are reported and
       compared to these goals; and

       conduct a preliminary survey of the procedures in place to evaluate whether
       subgrantees are achieving their intended purpose.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to evaluate and monitor individual subgrantees. In addition, we judgmentally
selected subgrantees and obtained the Commission's documentation for site visits. We
reviewed the documentation to preliminarily assess the adequacy of the procedures
performed by the Commission to assess financial and programmatic compliance and related
controls at the sites. We also determined whether the Commission received and reviewed A-
133 audit reports from subgrantees.

Providing Technical Assistance

Our objectives were to:

       conduct a preliminary survey of the systems and controls utilized by the Commissions
       to provide technical assistance to subgrantees and other entities in planning programs,
       applying for funds, and implementing and operating programs;

       make a preliminary assessment as to whether a process is in place to identify training
       and technical assistance needs; and

       make a preliminary assessment as to whether training and t e c h c a l assistance is
       provided to identified subgrantees.

In order to achieve the above objectives, we documented the procedures performed by the
Commission to identify and satisfy training needs for the subgrantees and Commission
employees. We also obtained a summary of all training costs incurred during the current year
to ensure they properly related to training activities which were made available to all
subgrantees.
APPENDIX C     - DELA WARE COMMISSION RESPONSE



         Delaware Health
         and Social Services
         Division oJ Stole
         Service Centers
                                                                                                                  Office of the Director




      April 26,2000



      Ms. Luise S. Jordan
      Inspector General
      Office of Inspector General
      1201 New York Avenue, NW
      Washington, DC 20525

      Dear Ms. Jordan:

      Enclosed is our response to the draft report onthe pre-audit survey of the Delaware
      Community Service Commission in which we have attempted to address areas and issues
      that we feel deserve additional attention. We appreciate the time and efforts that your
      organization has invested in ensuring the adequacy of our Commission's systems.

      We realize that all organizations have room for improvement and we welcome this
      opportunity as one, which will allow our State Commission to improve our existing
      policies and procedures.

      We appreciate and anticipate any input and advice that your Office is able to provide our
      Commission in our efforts to maintain exemplary standards and systems.

      If you have any questions please do not hesitate to contact me at 302-577-4961




      Director, Division of State Service Centers

      Enclosures
      Cc:    Cynthia Lovell, State Office of Volunteerism
            Joseph D u e , Delaware Community Service Commission
            Jarvis Berry, Delaware Community Service Commission




           1 9 0 1 N . DUPONT H W Y .   -   NEW CASTLE   .               .
                                                             D E L A W A R E 19720   -   TELEPHONE:
                                                                                                  1302) 5 7 7 - 4 9 6 1
APPENDIX C   - DELAWARE COMMISSION RESPONSE




                                   Delaware Community Service Commission

                                       Pre-Audit Survey Report Response
                                of the Delaware Community Service Commission



                                                   Table of Contents



       Pre-Audit Survev Report Res~onse

             General Comments...................................................................................       1
                      .     .
             Results ~nBnef. .......................................................................................   2

             Overview of the Delaware Community Service Commission.. ................................ 3

             Objectives, Scope and Methodology.. ............................................................. 4

             Findings and Recommendations.. .................................................................. 4



      A~~endices

             Appendix A - Delaware Commission Pre-Audit Action Plan. ................................ 7

             Appendix B - Delaware Commission Organization Chart.. ................................... 13

             Appendix C - Listing of Delaware Commission Subgrantees -1995 through 1999.. ..... 14
APPENDIX C - DELA WARE COMMISSION RESPONSE




       General Comments

       Based on the pre-audit process, procedures and outcomes, we have made the following
       general comments:

          We accept full responsibility on any areas where we were remiss in our capacity as a
          State Commission, but we also believe that part of the responsibility rests on external
          issues beyond our control such as unforeseen staff transition, and redeveloping
          Corporation for National Service policies and requirements.

          The timeframe prior to and leading up to the pre-audit survey was unorganized and
          confusing. Beyond receiving notice of our pre-audit survey date, there was
          insufficient information to prepare us for what to expect fiom the audit, whom to
          have present, the purpose of the pre-audit, specific information to be reviewed, or
          how the pre-audit would be performed (i.e. an agenda).

          The pre-audit process itself was unorganized and confusing. Requests were made via
          "word of mouth' as opposed to written communication. Discrepancies in what was
          requested along with differences in language usage (accounting vs National Service)
          often led to inaccurate presentation of documentation. Throughout the pre-audit
          process there was uncertainty as to what was expected fiom us as a Commission: No
          agendas were presented; last minute and on-the-spot requests for information that
          would take time to produce (i.e. Commission Members and past employees); and the
          reliance of hearsay over actual evidence.

          The Delaware Commission has taken great strides to rectify any deficiencies in our
          systems over the past two years, despite staff transition and other challenges. Many of
          our deficiencies have been eliminated and we are constantly in a quest to improve
          upon areas that would benefit. In the two prior "findings" letters that we received
          kom UKW there was information included which documented that our current
          systemslprocedures has greatly improved over the previous years, although these
          statement were omitted in this drafl report.

          We have an overall concern with statements presented throughout this draft report in
          which the pre-audit team has made several undocumented leaps from the specific to
          the general, which we have outlined below.
APPENDIX C - DELAWARE COMMISSION RESPONSE




      RESULTS IN BRIEF

      In general, the Results in Beef are misleading and contain generalizations and
      assumptions that don't align with the actual "findings" that we were initially presented
      and with those listed in this document. There are several occasions where leaps from the
      general to the specific were made by the pre-audit team.

       1.   " We were unable to determine if the Commission has an open and competitive

            process to select national service subgrantees and whether the related systems and
            controls are functioning as designed, due to lack of supporting documentation".
               The Delaware Community Service Commission has a very sound open and
               competitive subgrantee selection process. We have documented these procedures
                since the inception of our State Commission. We comply strictly with the State of
                Delaware subgrantee selection process, which goes beyond the requirements
               mandated by the Corporation for National Service.
               The Delaware Commission has experienced some loss of documentation over the
               past years, due to the office being moved three times. We have become aware that
               during those transitional periods some loss of files and documentation has
               occurred. Despite this challenge, we have undertaken an action plan (Appendix
               A) that will aid us in recovering missing documentation. Also, we have placed
               great emphasis on ensuring that all present and future files, documentation and
               systems are sufficiently rnamtained.

      2. "The Commission does not have an adequate process in place for the fiscal
         administration of grants".
            The Delaware Community Service Commission is on secure financial and
            programmatic footing. Any challenges and deficiencies that we may have
            encountered in the past have already been remedied or are in the process of being
            corrected. Included in Appendix A section 4 is the Pre-Audit Survey Action Plan
            which outlines the steps which have been and shall be taken to ensure sound fiscal
            systems.
            This conclusion in general made by the pre-audit team is an assumption made
            without verification of its validity. Much of the fiscal procedures reviewed by the
            pre-audit team consisted of interviews of various staff, involved and not involved
            in fiscal management. Absent from these interviews were past Delaware
            Community Service Commission Executive Directors who were integrally
            involved in past fiscal management. The pre-audit team did not contact these
            Executive Directors although the team was provided with contact information and
            requests to contact past Executive Directors.

      3. "The Commission does not have adequate controls in place to evaluate and monitor
         subgrantees".
         * The Delaware Community Service Commission has a very sound and thorough
            monitoring system and controls. Over the past year a lot of effort and great detail
            has been placed on revising monitoring procedures. We believe that our
            monitoring system is, if anything, too comprehensive. The pre-audit team has
APPENDIX C    - DELAWARE COMMISSION RESPONSE




              listed one s ~ e c i f i carea of improvement on our monitoring tool ("more specificity
              in o w documentation of subjects monitored") and we have since incorporated that
              recommendation into our standard monitoring protocol. The pre-audit team, based
              on one very specific recommendation, has made an unjustified general statement,
              that our monitoring controls are inadequate.
          =   The Delaware Community Service Commission monitors all subgrantees at a
              minimum of once per year, at which time all files, records, systems, policies, and
              procedures are reviewed to ensure compliance.

       We invite the Office of the Inspector General to perform a full scope financial audit on
       our funds, processes and procedures, and we look forward to improving our fiscal
       administration and program oversight based on any recommendation that you might have.

       We have incorporated various corrective actions to address the above issues and would
       welcome the Office of the Inspector General's input in determining their adequacy in
       meeting the legal, programmatic and federal requirements.

       OVER VIEW OF THE DELA WARE COMMUNITY SERVICE COMMISSION

       The Delaware Community Service Commission is headquartered in New Castle,
       Delaware within the State Office of Volunteerism. The State Office of Volunteerism is
       under the management of the Delaware Division of State Service Centers, which is within
       the Delaware Department of Health and Social Services (see organizational chart
       Appendix B).

       Whereas the pre-audit team stated that the Delaware Community Service Commission
       has a staff of six full time persons, the Delaware Community Service Commission only
       maintains, at its capacity, three full time and two quarter-time staff persons, consisting of
       an Executive Director, a Program Officer, an Administrative Support Person (all full-
       time) and a Fiscal Officer and Youth program Advisor (both % time). At the time of the
       pre-audit survey the Delaware Community Service Commission staff consisted of a full-
       time "Acting" Executive Director, and a %-time Fiscal Officer. (We also were utilizing a
       temporary secretary). We believe that the pre-audit team may have had difficulty
       performing their pre-audit duties because of their inexperience of dealing with a State
       Commission within a state agency. The Delaware Community Service Commission
       complies with all federal regulations, and we also comply with State fiscal policies. This
       structure created some of the confusion that the pre-audit team encountered.

       The Delaware Community Service Commission uses a fair and equitable subgrantee
       selection process, which complies with both State of Delaware and federal mandates. Not
       during any grant year has a majority of the Delaware Community Service Commission's
       subgrantees been state agencies. The Commission has been very cognizant of funding
       state agencies, and has only done so when they were initiatives of the Governor and/or
       when there lacked the presence of an agency to provide the systematic and programmatic
       needs of an applying program. (see Appendix C - listing of Delaware Community
       Service Commission subgrantees).
APPENDIX C   - DELA WARE COMMISSION RESPONSE




       In March of 1999 the Delaware Community Service Commission engaged Walker &
       Company, LLP to provide financial management consulting services and address specific
       fiscal issues. A11 of the recommendations have either been implemented by the Delaware
       Community Service Commission or has become a part of the "action plan" incorporated
       once the new Executive Director was in place at the Delaware Community Service
       Commission. This included the placement of fiscal responsibilities under the
       management of a new fiscal officer, which has incorporated very specific process, as
       recommended by Walker & Company. One of the challenges the Delaware Community
       Service Commission has faced has been the timeliness of programmatic Financial Status
       Reports. There have been several reasons behind this challenge. The primary challenge
       faced by the Delaware Community Service Commission has to do with the opposing
       structures and fiscal reporting requirements of the State of Delaware and the Corporation
       for National Service. The State of Delaware uses a draw-down method whereas CNS
       requires a forecast method for expenditures. This has created some complications for the
       Delaware Community Service Commission and the State of Delaware. With the addition
       of the Corporation for National Service's Web-Based Reporting System, this challenge
       has been overcome. It allows the programs to submit their complete (forecasted)
       expenditures, while the State can submit to CNS their drawn-downlpaid out expenditures.
       The Delaware Community Service Commission continues to place a great emphasis on
       subgrantees to submit their FSRs in a timely manner, and the importance of said
       timeliness.

       OBJECTIVES, SCOPE AND METHODOLOGY

       Although the pre-audit team was engaged
                                             - - by- the Office of the Inspector General with the
       purpose of providing a preliminary assessment of the systems and procedures in place at
                                                                       --
       the Delaware Communitv Service Commission for administerint! erants and submantee-
       fi scal activity monitoring, an inordinate amount of pre-audit team review procedures and
       testing included the reliance on hearsay as opposed to actual evidence. During an exit
       conference this concern was expressed to the pre-audit team.

       FINDINGS AND RECOMMENDATIONS

       Selection of Subgrantees

           The Commission did not maintain signed conjTict of interest forms as required

       The Commission has always required Commission members to maintain signed conflict
       of interest forms upon their appointment by the Governor. The Delaware Community
       Service Commission had incorporated and maintained a recusal process and conflict of
       interest process before the Corporation for National Service had policies and procedures
       pertaining to such in place. As evidence of such, the Delaware Community Service
       Commission maintains on file records of payments to an attorney who provided a conflict
       of interest and ethics training to Commission members. The pre-audit team has stated that
       our conflict of interest forms were submitted after-the-fact and without dates, as though
APPENDIX C - DELA WARE COMMISSION RESPONSE




       we had them created in an effort to appease the pre-audit team's needs. This is not the
       case. The need to have these documents reviewed was not brought to the attention of the
       Delaware Community Service Commission until the conclusion of the pre-audit
       proceedings. We were told to forward them to the pre-audit team under separate cover,
       which we did. After forwarding these documents to the pre-audit team, they provided us
       with a response that these forms should have been dated. Our policy was to have
       Commission Members, as a part of their initial orientation, complete a conflict of interest
       form, which would commence and mn through their term of service as a Commission
       Member. We have since updated our Commission conflict of interest forms and
       procedures to include the date on the forms. Any additional outside reviewers are also
       required to sign conflict of interest forms.

                   Lack of assessment of subgrantee applicants' Finan cia1 Systems
                                    during the selection process

       In compliance with Corporation for National Service requirements the Delaware
       Community Service Commission requires all submitting applicants to provide the
       Delaware Community Service Commission with a 3-year budget and statement of fiscal
       policies and procedures. These documents were presented to the pre-audit team and they
       made a notation on their 'preliminary draft report' that current Delaware Community
       Service Commission policies and procedures required such. Yet, this statement has been
       omitted from this draft report.

        The Commission did not advertise the availability of funds for rhe 1998program year.

       The Delaware Community Service Commission was fully aware (and presented to the
       pre-audit team our awareness) that the Corporation for National Service did not mandate
       an annual Request for Proposal (RFP). In accordance with the pre-audit team's
       recommendation we have since incorporated as policy, that documentation be maintained
       as to why an RFP was not conducted during a particular grant year.

       Administering Grant Funds

       Lack of evidence of Financial Status Report review, including matching recalculation.

       As standard procedures, the Delaware Community Service Commission does review
       subgrantee FSRs, recalculate matching requirements and document the results. We also
       have procedures in place which allow for the reconciliation of subgrantees' FSRs to the
       subgrantee's accounting system and other supporting documentation. Under the
       recommendation of Walker & Company, and other State Commissions we request
       monthly Request for reimbursements (RFRs) 6om subgrantees, which allows us to
       calculate and verify subgrantees' FSRs.
APPENDIX C - DELAWARE COMMISSION RESPONSE




                          Inability to determine timeliness of receipt of FSRs

       As stated previously, one of the challenges faced and overcome by the Commission has
       been with the opposing structures of fiscal reporting requirements and structures of the
       State of Delaware and the Corporation for National Service (see page 5).

                         The Commission did not maintain all required FSRs.

       Additional complications faced by the pre-audit team in determining @ FSR accuracy
       stemmed from the fact that between 1995 - 1997 the Delaware Community Service
       Commission has submitted FSRs directly to the Corporation for National Service and not
       through the Delaware Financial Management System (DFMS). This has led to some
       unverifiable FSRs, but this process has since been rectified.

                           Lack of budget controls over Administrative and
                              Program Development & Training Funds

       The Delaware Community Service Commission, under the advice of Walker & Company
       does maintain and track all fiscal expenditures by line item.

       Evaluating and Monitoring Grants

                        The evaluation and monitoring system for subgrantees
                              needs to be improved at the Commission.

       The Delaware Community Service Commission incorporates strict measures to ensure
       subgrantee compliance with state and federal requirements. The above statement made by
       the pre-audit team directly contradicts the statement presented in the "Results in Brief'
       section. The Delaware Community Service Commission is consistently seeking to
       improve our systems. As stated here, an area of improvement (monitoring tool) has been
       brought to our attention, but to liken an entire system that contains one flaw as inadequate
       (as stated in the draft report, page 1, Results in Brief; bullet number 3) is an
       undocumented leap &om the specific to the general.

                  Lack of documentation of review of OMB Circular A-133 Reports
                              or other audit reports from subgrantees.

      The Delaware Community Service Commission has in the past and currently reviews,
      when appropriate, the A-133 Reports of subgrantees at least annually, with procedures in
      place to address any findings within the A-133s.
APPENDIX C - DELA WARE COMMISSION RESPONSE




       APPENDIX A

                            Delaware Community Service Commission
                                  Audit Findings Action Plan


       1. Signed Conflict of Interest Forms must be maintained by tbe Commission.

       ACTION                                                         DATE T O BE   BY
                                                                      COMPLETED     WHOM
       Current DCSC Conflict of Interest Forms (CIFs) shall be
       updated to include dates.                                                     JB
       CNS conflict of interest information and new DCSC CIFs shall
       be distributed to DCSC Commission Members for updating.
       CNS conflict of interest information and new DCSC CIFs shall
       be mailed to DCSC Commission Members for updating.
       Signed, updated CIFs shall be placed on file at DCSC.
       A standardized CIF procedure shall be created utilizing:
               The signing of forms at the September/October
               Commission Meeting of year (coinciding with the
               programmatic year).
               The mailing of CIFs to Commission Members who are
               not present at the SeptemberIOctober meeting.
               Maintaining the (annual) signed CLFs in the DCSC
               central file.
       Standardized CIF procedures shall be placed in the DCSC
       Policies and Procedures Manual.
       Standardized CIF procedures shall be placed on the DCSC
       annual calendar.
APPENDIX C - DELA WARE COMMISSION RESPONSE




       2. Files should be maintained so tbat supporting documentation for grants
          awarded are accessible and up-to-date.

       ACTION                                                                       DATE TO BE             BY
                                                                                    COMPLETED              WHOM
       DCSC staff shall review the current DCSC filing system, with                                        JB, KH,
       missing items being documented.                                                    4/7/00           SS, LM
       All miss in^ items shall be retrieved if possible (kom archives,                                    JB, KH,
       CNS, DMS, DSSC, etc) and placed inihe file.        '                              4112/00           SS, LM
       Any irretrievable documents shall be noted and documented in a           I
       memorandum, which shall be placed in the corresponding file.             I        4114100             LM
       DCSC secretary shall be shown the six-part filing system utilized        I
       by Cindy Ridenour.                                                                 3/7/00             CR
       The current and prior year contracts/grants shall be incorporated
       into a six-part filing folder system.                                              4/3/00             LM
       Additional subgrantee information shall be kept in the DCSC
        Central Filing cabinets.                                                         Ongoing             LM
        A weekly file checklist shall be created to ensure that all
        documents are present in the filing system.                                       4/5/00             JB
        Initially, (the 1'' 6 months after incorporation) the secretary shall
        complete a weekly file checklist to ensure that all documents are           Beginning 4/14/00        LM
       present in the filing system.
       DCSC staff shall perform a bi-annual filing audit, which shall
        consist of taking apart the central file and ensuring its                   1'' audit - 4/7/00 &
        completeness and non-duplicity                                                    annually
                 The first audit shall be performed by the DCSC secretary
                 The DCSC Administrator and Program Officer shall                   2ndaudit - 9/9/00 &
                 perform the final audit.                                                annually
       Documentation of the audits shall be maintained.
APPENDIX C - DELAWARE COMMISSION RESPONSE




          3. Monitoring and Evaluation of Programs must be specific, to include names,
             social security numbers, or other identifiers which will create a "paper trail"
             and allow for accurate follow-up proceedings to be performed.

      1 ACTION                                                               I DATE T O BE            I BY
                                                                             1 COMPLETED              1 WHOM
        Current DCSC Monitoring Tool will be re-evaluated for its
      I effectiveness and updatedto include space for including member       I     11/99
        names, social security numbers and other identifiers.
        DCSC Monitoring Team (PO & 0 0 ) will be trained to use the
        DCSC Monitoring Tool & perform site visits, including. posting
                                                                    .                 2/20/00
        full documentation.                                                  1    3/6/00 & 3/7/00     1
        DCSC Monitoring SystemProcedures shall be revised to include:        I
                DCSC Administrator shall review site visit feedback
                 forms prior to being submitted to programs.
                  DCSC Program Oversight Committee (POC) shall review
                 site visit reports after they have been submitted to
                programs with an action plan.
        DCSC Monitoring Tool & system shall be placed in the DCSC
        Policies & Procedures Manual.                                                 5/1/00                 JB
        DCSC Monitoring Tool & system shall be reviewed and
        evaluated by staff for its effectiveness and then sent to TASC for        5/3/00 & 5/8/00         KH, JB, SS
        review.
        DCSC staff will be trained to utilize the updated monitoring tool.       6114/00 (annually)        KH, 00
        The annual evaluation of the DCSC Monitoring TooVsystem and
        the training of Monitoring staff shall be placed on the DCSC                   5/1/00                JB
      ( annual calendar.                                                                              I
APPENDIX C - DELAWARE COMMISSION RESPONSE




       4. The maintenance of proper financial systems needs to be improved. This
          includes procedures to effectively review FSRs, procedures to effectively track
          program expenditures, procedures to ensure the timeliness of FSRs at both the
          grantee and sub-grantee level, and maintenance of FSRs on file.

       ACTION                                                            I DATE TO BE                  BY
                                                                             COMPLETED                 WHOM
       Reviewing FSRs
             Program Officer shall receive initial FSR reviewing
                                                                                    2/23/00               KH
              Administrator and Program Officer shall review the
                                                                                    3/22/00             JB. KH
              [If necessary] Corland Forrestor shall perform a DCSC
              FSR review training, which shall include setting up                     4/00               JB
              additional systems and database.                                                         Walker &
                                                                         I                               Co
              Program
                  -     Officer reviews FSR using the DCSC FSR
              checklist.                                                      10Ihof each qtr due         KH
              FSRs are forwarded to fiscal (Cindi Ridenour)                   1l t hof each qtr due       KH
              FSRs are forwarded to CNS.                                      251h of each qtr due     T. Rhodes
       Tracking Program Expenditures
              FWRs are sent to Program Officer the 1 0Ih of each              1Olh of every month      Subgrantee
              month
              RFRs are checked by the Program Officer, using the
              DCSC RFR checklist.                                             1l t hof e v e y month      PO
              RFRs and the checklist are filed in the DCSC Central
              File cabinets.                                                  1lthof every month          PO
              FSRs are posted on WBRS by. the program
                                                  .  -    each
              quarter.                                                        10Ih of every month      Subgrantee
              The Program Officer checks the FSR against the RFRs
              for the quarter and ensures that the amounts "match             I 1" of each qtr due        KH
              up".
              If any discrepancies are found, they are documented
              and resolved by the Program Officer and the                     121hof each qtr due
              subgrantee.
       Ensuring subgrantee & DCSC FSR timeliness
              Programs are provided with annual FSR due dates
              1. At the annual Program Director's Training               I     Annually in July
              2. As a part of the subgrantee contract workplan           I Annually between July
                                                                               & September
              3. At a 1" quarter Program Director's Meeting                  Annually in October
              Submantees
                 "        shall receive a FSR notice on the 1'' of the
              month for which an FSR is due.                                     1'' of due qtr.
              Subgrantees are then required to post a n FSR on
              WBRS.                                                          10" of the month due      Subgrantee
APPENDIX C - DELAWARE COMMISSION RESPONSE




          =  Subgrantees submit a signed original to DCSC.                      lothof the month due     Subgrantee
             DCSC Program Officer pulls a copy of the FSR, checks
             it and forwards it to fiscal (Cindi Ridenour)                      10' of the month due        PO
             If subgrantee FSRs are a day late, the lateness is
             documented and they receive a telephone call from the              1l t hof the month due      PO
             PO
             lf the FSR is five ( 5 ) days late they receive a letter kom
             DCSC stating such and its potential effect on future               15Ih of the month due       JB
             funding.
             Lateness shall be taken into account for the next
             funding cycle.                                                            -.-. --             .
                                                                                                           ..--- -
       Maintaining FSRs on file.
          = DCSC staff shall review the current DCSC filina
                                                                -                                         IB., KH.,
             system, with missing FSRs being documented.                               417100             SS, LM
             All missing FSRs shall be retrieved if possible (from
             archives, CNS, Controller, DSSC, etc) and placed in the                  4114/00
             file.
             Anv irretrievable FSRs shall be noted and documented           1
             in a memorandum, which shall be placed in the                            4120100               LM
             corresponding file.
APPENDIX C   - DELAWARE COMMISSION RESPONSE




       5. An open, competitive sub-grantee selection process must be performed if any
          additional programs are added to a grant year. If no selection process is
          required and performed during a particular year, it should be properly
          documented.

       ACTION                                                               DATE TO BE   BY
                                                                            COMPLETED    WHOM
       DCSC will perform an open, competitive process for the 2000-
       2001 Grant Year.                                                                  Ongoing
       DCSC will create a standardized, annual subgrantee selection
       process which shall include:                                                       JB, SS
               A standardized narrative of the subgrantee selection &
               review process.
               A standardized timeline of the subgrantee selection &
               review process.
           = Written policies that clearly state when an open,
               competitive subgrantee selection process is not
               necessary.
               Procedures to be followed when an open, competitive
               subgrantee selection process is not held.
       The DCSC standardized, annual subgrantee selection process
       shall be placed in the DCSC Policies and Procedures Manual.
                                                                        tI      511I00
       The DCSC standardized, annual subgrantee selection process       I
       shall be placed on the DCSC annual calendar.                             511100
APPENDIX C - DELA WARE COMMISSION RESPONSE




       APPENDIX B



                DELAWARE COMMUNITY SERVICE COMMISSION
                        ORGANIZATIONAL CHART




                                Delaware
                           Department of Health                  Dr. Gregg Sylvester
                             & Social Services




                            Delaware Division of                      Anne M. Farley
                            State Service Centers                        Duector




                                State Office of                        Cynthia Love11
                                Volunteerism                           Administrator




                           Delaware Community                          Joseph Duffy
                           Service Commission                              Chair




                            I   Executive Director      I. . -       Jarvis M. Berry
                                   Full-Time


                                               I     Fiscal 0
                                                        % Time
                                                                 I
APPENDIX C - DELAWARE COMMISSION RESPONSE




                             Delaware Community Service Commission
                             Listing of Subgrautees, 1995 Through 1999


       1999
       1. Delaware KickStart (state agency)
       2. First State Mentor Corps (state agency)
       3. SODAT (non-profit agency)
       4. Neighborhood Ambassadors (non-profit agency)
       5. TEENCorps (non-profit agency)


       1998
       1.   Delaware KickStart (state agency)
       2.   First State Mentor Corps (state agency)
       3.   Resource Mothers (non-profit agency)
       4.   SODAT (non-profit agency)


       1997
       1.   Delaware Kickstart (state agency)
       2.   First State Mentor Corps (state agency)
       3.   Resource Mothers (non-profit agency)
       4.   SODAT (non-profit agency)


       1996
       1.   Delaware KickStart (state agency)
       2.   First State Mentor Corps (state agency)
       3.   Resource Mothers (non-profit agency)
       4.   Dover Housing Authority (municipal agency)


       1995
       1. Dover Housing Authority (municipal agency)
       2. Resource Mothers (non-profit agency)
APPENDIX D    - CORPORA TION RESPONSE

The Corporation did not provide a response within the thirty-day comment period.
